~METRO
u
CREDIT UNION

APPLICATION AND
SOLICITATION
DISCLOSURE

200 Revere Beach Parkway
Chelsea , MA 02150
877-696-3876

V ISA
VISA SECURED

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

15.90%

APR for Balance Transfers

15.90%

APR for Cash Advances

15.90%

Penalty APR and When it Applies

18.00%
This APR may be applied to your account if you:
- Make a late payment.
How Long Will the Penalty APR Apply? If your APRs are increased for
this reason, the Penalty APR will apply until you make six consecutive
minimum payments when due.

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Annual Fee
- Annual Fee
Transaction Fees
- Cash Advance Fee
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
If you are charged interest, the charge will be no less than $0.50.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

$59.00
$0.95
1.00% of each transaction in U.S. dollars
Up to $10.00
Up to $25.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Application of Penalty APR:
Your APR may be increased to the disclosed Penalty APR if you are 60 days late in making a payment.
Minimum Interest Charge:
The minimum interest charge will be charged on any dollar amount.
Effective Date:
The information about the costs of the card described in this application is accurate as of: September 27, 2017
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa Secured is a secured credit card. Credit extended under this credit card
account is secured by various personal property and money including, but not limited to: (a) any goods you
SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02006646-MXC10-P-3-072817 (MXC101-E)

purchase with this account, (b) any shares you specifically pledge as collateral for this account on a separate
Pledge of Shares, (c) all shares you have in any individual or joint account with the Credit Union excluding
shares in an Individual Retirement Account or in any other account that would lose special tax treatment under
state or federal law, and (d) collateral securing other loans you have with the Credit Union excluding dwellings.
Notwithstanding the foregoing, you acknowledge and agree that during any periods when you are a covered
borrower under the Military Lending Act your credit card will be secured by any specific Pledge of Shares you
grant us but will not be secured by all shares you have in any individual or joint account with the Credit Union.
For clarity, you will not be deemed a covered borrower if: (i) you establish your credit card account when you are
not a covered borrower; or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
$10.00 or the amount of the required minimum payment, whichever is less, if you are 16 or more days late in making a
payment.
Annual Fee:
$59.00.
Cash Advance Fee (Finance Charge):
$0.95.
Returned Payment Fee:
$25.00 or the amount of the required minimum payment, whichever is less.
Card Replacement Fee:
$10.00.
Emergency Card Replacement Fee:
$20.00.
Pay-by-Phone Fee:
$5.00.
Rush Fee:
$20.00.
Statement Copy Fee:
$5.00.
Copy of Sales Draft Fee:
$2.00.
Original Sales Draft Fee:
$6.00.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

02006646-MXC10-P-3-072817 (MXC101-E)

